COCKLE

2311 Douglas Street E-Mail Address:
Omaha, Nebraska 68102-1214 VAL egal B ri cfs contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

JAMES K. COLLINS AND
TONI SHARRETTS COLLINS,
Petitioners,

v.

D.R. HORTON-TEXAS, LTD.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 5170 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this | Ith day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NOTARY-State of Mebraska /\ fi
RENEE J. GOSS: Koonee, ) Yoon Queda Be, Ghhy
My Comm. Exp. September 6, 2023 S
Notary Public

Affiant

 

 
